           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    ADMINISTRATIVE LAW JUDGES’
      CASELOAD PERFORMANCE


     February 2008   A-07-07-17072




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      February 6, 2008                                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Administrative Law Judges’ Caseload Performance (A-07-07-17072)


           OBJECTIVE
           The objective of our review was to evaluate the effect of varying levels of administrative
           law judges’ (ALJ) caseload performance on the Office of Disability Adjudication and
           Review’s (ODAR) ability to process projected hearing requests and address the growing
           backlog of cases.

           BACKGROUND
           ODAR is responsible for holding hearings and issuing decisions as part of the Social
           Security Administration’s (SSA) process for determining whether or not a person may
           receive benefits. ODAR directs a nationwide field organization staffed with ALJs who
           conduct impartial hearings and make decisions on appealed determinations involving
           retirement, survivors, disability, and supplemental security income. ALJs are supported
           by hearing office staff who conduct initial case screening and preparation, maintain a
           control system for all cases in the hearing office, conduct prehearing case analyses,
           develop additional evidence, schedule hearings, and write, type, and send notices and
           decisions to claimants. 1

           ALJs are eligible for membership in the Association of ALJs, International Federation of
           Professional and Technical Engineers (the Union). The purposes of the Union are to
           preserve, promote, and improve:
               •   Guarantees and protections provided by the United States Constitution, the
                   Administrative Procedures Act (APA), 2 and all other Federal laws; 3
               •   The working conditions of ALJs; 4


           1
             HALLEX I-2-0-5. See Appendix C for the typical organization of a hearing office.
           2
             Administrative Procedures Act, 5 U.S.C. § 554.
           3
             Agreement between SSA and the Union, Article 5, Section 2.
           4
             Agreement between SSA and the Union, Article 23.
Page 2 - The Commissioner

    •   The professionalism and competence of ALJs by ensuring opportunities for
        continuing professional education and training; 5 and
    •   The rights of its members through collective bargaining, political action and all
        other lawful concerted activities. 6

On August 31, 2001, SSA entered into an agreement with the Union. The agreement
was initially effective for 3 years and automatically renewable for 1 year unless there
was a change in a law, rule, or regulation that mandated a change in the agreement.
Either SSA or the Union can request the agreement be amended, modified, or
terminated. If negotiations are not concluded prior to the expiration date, the
agreement will continue until a new agreement becomes effective. In January 2007,
SSA and the Union extended the agreement to January 31, 2010.

ODAR issued 558,760 case                                          Table 1
decisions during Fiscal Year                                 FY 2006 Production
           7
(FY) 2006. These cases were                      Employment          Number of   Number of Cases
           8                9
processed by 1,217 ALJs. Of                          Status            ALJs        Processed
these ALJs, 895 were fully                      Fully Available
                                                                         895        434,498
                                                      ALJs
available to process cases and                 Partially Available
322 were only partially available to                                     322        124,262
                                                      ALJs
process cases (see Table 1 and                        Total             1,217       558,760
Appendix E, Table 1). 10




5
  Agreement between SSA and the Union, Article 26, Section 2.
6
  Agreement between SSA and the Union, Article 1, Section 2.
7
  All references to decisions and cases in this report pertain to SSA cases and not Medicare cases. The
data file we received from ODAR’s Case Processing and Management System (CPMS) contained slightly
fewer cases than ODAR identified in workload reports published for FY 2006. See Appendix B for a
detailed discussion of the scope and methodology of our review.
8
  Throughout this report, we use cases “processed” to refer to case decisions issued by an ALJ during
FY 2006.
9
  The FY 2006 ODAR workload reports identified ALJ full-time equivalents as 1,111.77. However, for our
review we did not use full-time equivalents. Rather, we obtained a data file from ODAR’s CPMS of case
decisions issued in FY 2006. This extract identified 1,217 ALJs as issuing case decisions in FY 2006.
10
   We considered partially available ALJs to be those who were reasonably expected to process fewer
cases than fully available ALJs or were not employed by SSA during the entire year. See Page 5 of this
report for further discussion of partially available ALJs. See Appendix D for the classifications of ALJs
considered partially available and the number of ALJs in each classification.
Page 3 - The Commissioner

RESULTS OF REVIEW
We found that ODAR’s ability to process projected hearing requests and address the
growing backlog of cases will continue to be negatively impacted by the caseload
performance of some ALJs if their status quo performance levels continue. To ensure
claimants receive their hearing decisions as soon as possible and to be good stewards
of the American taxpayer’s funds, SSA must ensure that hearing requests are processed
within acceptable timeframes and the backlog of cases is reduced to an appropriate
level. To do so, SSA should establish a performance accountability process that allows
ALJ performance to be addressed when it falls below an acceptable level.

MANAGEMENT OF ALJ CASELOAD PERFORMANCE

While ODAR has taken actions to counsel some ALJs on the timeliness of their case
processing, it does not have a formal performance accountability process in place to
hold ALJs accountable for performance that is below an acceptable level. A formal
performance accountability process may result in resistance from some ALJs based
upon their misinterpretation of the qualified decisional independence provision.
However, provisions in Federal legislation, the Union Constitution, and the Union
agreement allow SSA to establish a reasonable production goal, provided the goal does
not infringe on ALJs’ qualified decisional independence.

The APA was enacted to protect ALJs’ qualified decisional independence. 11
Specifically, safeguards were put in place to ensure that ALJ judgments were
independent and ALJs would not be paid, promoted, or discharged arbitrarily or for
                  12
political reasons. To ensure ALJ independence, the APA grants ALJs certain specific
exemptions from normal management control. For example, SSA may not establish a
performance appraisal system for ALJs like it does for other Federal employees. 13
However, the APA does not prevent disciplinary actions against ALJs. 14 In fact, the
Merit Systems Protection Board (MSPB) stated in the Matter of Chocallo, 15 “[t]he fact
that an [ALJ] carries out his/her duties in a hearing room rather than an office does not
provide an impenetrable shield from appraisal of performance.” 16




11
   Supra note 2.
12
   Id.
13
   5 U.S.C. §4301 and 5 C.F.R. §930.206.
14
   An action may be taken against an ALJ only for good cause established and determined by the MSPB.
See 5 U.S.C. §7521; see also 5 C.F.R. §930.211.
15
   Matter of Chocallo, 1 M.S.P.R. 605 (1980).
16
   Id.
Page 4 - The Commissioner

Further, Federal legislation does not prevent SSA from establishing a performance
accountability process wherein ALJs are held to reasonable production goals, as long
as the goals do not infringe on ALJs’ qualified decisional independence. Specifically, in
the case of Nash v. Bowen, 17 the Second Circuit Court of Appeals upheld SSA’s
imposition of monthly production goals in efforts to eliminate the backlog and delays in
processing cases. 18 In this case, ALJs claimed that such policies violated the ALJs’
qualified decisional independence granted by the APA. The court focused on the intent
of the APA and held that “…[the] setting of reasonable production goals, as opposed to
fixed quotas, is not in itself a violation of the APA…Moreover, in view of the significant
backlog of cases, it was not unreasonable to expect ALJs to perform at minimally
acceptable levels of efficiency.” 19 The MSPB expressed a similar view in the case of In
re Sannier 20 when concerns arose over low productivity in one hearing office and ALJs
were expected to process 40 cases per month. 21 The ALJs appealed the action to the
MSPB, who held that “…so long as the agency’s actions do not affect the ability of the
ALJ to function as an independent and impartial decisionmaker, [the actions] are
              22
permissible.”

The Union Constitution provides that:

        The association shall not enter into any agreement with SSA, HHS-
        DAB, or any other federal agency that creates case production
        standards and/or performance standards for Administrative Law
        Judges or which in any manner adversely impacts upon the right of an
        Administrative Law Judge to conduct a constitutional due process
                                                               23
        hearing according to the Administrative Procedure Act.

Further, the agreement with the Union states that an ALJ’s duties are “complex and
varied” and “…are of such a character that the output produced or the results
accomplished by such work cannot be standardized in relation to a given period of
time.” 24 However, we do not believe that the provisions in the Union Constitution or the
agreement prevent SSA from establishing a reasonable production goal, provided the
goal does not infringe on ALJs’ qualified decisional independence.

While interpretation of the APA, the Union Constitution, and the Union agreement
appear to allow a reasonable production goal to be established, SSA will need to
document the methodology used to establish the goal. Furthermore, once a reasonable
production goal has been established, SSA must be able to identify and maintain
evidence to support that an ALJ performed below an acceptable level. In fact, in

17
   Nash v. Bowen, 869 F.2d 675 (2d Cir. 1989), cert. denied, 493 U.S. 812 (1989).
18
   Id.
19
   Nash v. Bowen, 869 F.2d at 680.
20
   In re Sannier, 45 M.S.P.R. 420 (1990); aff’d in Sannier v. M.S.P.B., 931 F.2d 856 (Fed. Cir. 1991).
21
   Id.
22
   Id.
23
   Article XIX, Union Constitution.
24
   Agreement between SSA and the Union, Article 5, Section 1.
Page 5 - The Commissioner

SSA v. Brennan, 25 the MSPB held that an ALJ may be removed for substandard
production; however, in Brennan the Agency did not offer statistical evidence that
measured comparative productivity among ALJs. 26 Likewise, in SSA v. Goodman, 27 the
MSPB concluded that SSA had established good cause to warrant an ALJ’s removal
based on low productivity; however, the evidence provided by SSA did not prove that
the ALJ failed to achieve a minimally acceptable level of productivity. Therefore, SSA
must determine the types of statistical information that can serve as evidence of
substandard production.

SSA should work with legislative officials and others as the Agency deems appropriate
to identify a performance accountability process that ensures all ALJs perform at a
reasonable level, without infringing on ALJ qualified decisional independence. Further,
SSA should document the performance accountability process, including methods to
establish a reasonable production goal, identify and maintain statistical evidence of ALJ
caseload performance, and determine what performance actions are needed for ALJs
with production below an acceptable level.

PARTIALLY AVAILABLE ALJS

This review focused on increasing the number of cases processed by fully available
ALJs because ODAR does not track the number of hours each partially available ALJ is
actually available to process cases. Therefore, we could not analyze the partially
available ALJs’ caseload performance. As a result, our analyses assumed that partially
available ALJs will continue to process the same number of cases as they did in
FY 2006.

SSA needs to establish a process to identify the availability of each partially available
ALJ for case adjudication and establish acceptable levels of performance based on
availability. Without a process to determine whether partially available ALJs process
cases at a reasonable level, SSA cannot be assured that it receives appropriate value
for the dollars spent employing partially available ALJs.

We believe it is important to note that Hearing Office Chief ALJs (HOCALJ) were
included in the partially available ALJ classification for the purposes of our review.
HOCALJs were excluded from our analysis of fully available ALJs because, although
they are full-time employees, they are given the latitude to spend 25 to 50 percent of
their time on management functions, depending on the size of the hearing office.
However, we found it interesting that, in FY 2006, HOCALJs processed an average of
657 cases. This average was higher than the average of 485 cases processed by fully
available ALJs in FY 2006, although HOCALJs are only partially available to adjudicate
cases.



25
   SSA v. Brennan, 19 M.S.P.R. 335, 340 (1984).
26
   Id.
27
   SSA v. Goodman, 19 M.S.P.R. 321 (1984).
Page 6 - The Commissioner

IMPACT OF DIFFERENT PRODUCTION LEVELS

In FY 2006, fully available ALJs processed varying numbers of cases (see Table 2).
In fact, ALJs processed cases ranging from a low of 40 to a high of 1,805. The
average and median number of cases processed by fully available ALJs in FY 2006
                                   28
were 485 and 476, respectively. ODAR informed us that there is currently no official
minimum number of cases an ALJ is required to process.
Therefore, for our analysis, we evaluated the                     Table 2
impact production levels of 400, 450, 500,           Cases Processed by Fully
and 550 cases would have on ODAR’s case              Available ALJs in FY 2006
processing, given that these levels are within
                                                   Number of Cases     Number of ALJs
a reasonable tolerance of the average and
                                                       99 or Less             5
median. 29,30 Specifically, we evaluated the
impact of these production levels on ODAR’s             100-199              17
ability to process incoming hearing requests            200-299              94
and reduce the backlog of cases within                  300-399            144
          31
5 years. However, we are not                            400-499            242
recommending the establishment of a                     500-599            217
specific production level for ALJs nor are we           600-699            104
suggesting that any of the production levels            700-799              37
presented in this report are more appropriate
                                                        800-899              15
than another. The production levels
                                                        900-999               6
illustrated in this report are merely intended
to provide SSA with information regarding the         1,000-1,099             9
impact of various production levels on               1,100 or More            5
ODAR's workload. The establishment of a                  Total             895
reasonable production level for ALJs is a
management decision.

Production Level of 400 Cases

In FY 2006, 260 of the 895 fully available ALJs processed fewer than 400 cases each.
These ALJs represented about 29 percent of ODAR’s fully available ALJs. If these
ALJs increased their annual production to 400 cases each and the remaining fully
available ALJs’ production remained constant, the total production by fully available
ALJs would have increased by 26,241 cases (6 percent) over actual FY 2006
production (see Appendix E, Table 3).


28
   The median of 476 cases indicates that 50 percent of the ALJs processed 476 cases or more while the
other 50 percent of ALJs processed 476 cases or less.
29
   SSA has asserted that ALJs should be able to process 500 to 700 cases annually, according to the
Statement of Michael J. Astrue, Commissioner of Social Security, testimony before the Senate Finance
Committee, Addendum: Summary of Initiatives to Eliminate the SSA Hearings Backlog, May 23, 2007.
30
   See Appendix E for a detailed discussion of the methodology used for our analysis.
31
   SSA has an aggressive plan to eliminate the backlog by FY 2012. See Commissioner Astrue’s
testimony before the Senate Finance Committee, supra note 29.
Page 7 - The Commissioner

At this level of production, over 26,000 claimants would have received their decisions
more timely. However, even if the 260 ALJs processed 400 cases each and all other
fully and partially available ALJs’ production remained constant, it would not resolve all
of the workload issues facing ODAR. In fact, ODAR would only be able to stay abreast
of incoming hearing requests and make minimal reductions in the backlog during
FYs 2008 and 2009. In the following 3 FYs, ODAR would not be able to process all
projected hearing requests, and the backlog would increase.

If the 260 ALJs increased their annual production to 400 cases each and the remaining
ALJs’ production remained constant, additional ALJs would be needed for ODAR to
process all incoming hearing requests and completely eliminate the excess backlog by
FY 2012. In fact, we estimate 227 additional ALJs would need to be hired in
FY 2008 (see Appendix E, Table 4). 32

Production Level of 450 Cases

During FY 2006, 372 of the 895 fully available ALJs processed fewer than 450 cases
each. These ALJs represented approximately 42 percent of the fully available ALJs. If
these ALJs increased production to 450 cases each and the remaining fully available
ALJs’ production remained constant, the total production by fully available ALJs would
have increased by 42,223 cases (10 percent) over actual FY 2006 production (see
Appendix E, Table 3).

At this level of production, over 42,000 claimants would have received their decisions
sooner. If the 372 ALJs processed 450 cases each and all other fully and partially
available ALJs’ production remained constant, ODAR would be able to stay abreast of
all incoming hearing requests and make progress in reducing the backlog during FYs
2008 through 2011. In FY 2012, ODAR would not be able to process all projected
hearing requests and the backlog would increase.

If the 372 ALJs increased their annual production to 450 cases each and the remaining
ALJs’ production remained constant, additional ALJs would be needed for ODAR to
process all incoming hearing requests and completely eliminate the excess backlog
within 5 years. In fact, we estimate 158 additional ALJs would need to be hired in
FY 2008 (see Appendix E, Table 5). 33




32
   Because of a 9-month learning curve for new ALJs, all additional ALJs would need to be hired in FY
2008 and would not be fully available to process at the designated production level until FY 2009. Further,
our calculations were based on ALJs that had case decisions issued in FY 2006. Therefore, ODAR will
have to perform its own calculations of increased production and the number of additional ALJs that will be
needed once it selects a reasonable production level, while also considering ALJ attrition, newly projected
hearing requests, and current backlog statistics.
33
   Id.
Page 8 - The Commissioner

Production Level of 500 Cases

In FY 2006, 502 of the 895 fully available ALJs processed fewer than 500 cases each.
These ALJs represented approximately 56 percent of the fully available ALJs. If these
ALJs increased production to 500 cases each and the remaining fully available ALJs’
production remained constant, the total production by fully available ALJs would have
increased by 64,243 cases (15 percent) over actual FY 2006 production (see
Appendix E, Table 3).

At this level of production, over 64,000 claimants would have received their decisions
more timely. If the 502 ALJs processed 500 cases each and the remaining fully and
partially available ALJs’ production remained constant, ODAR would be able to stay
abreast of incoming hearing requests and make progress in reducing the backlog
through FY 2012.

If the 502 ALJs increased their annual production to 500 cases each and the remaining
ALJs’ production remained constant, additional ALJs would be needed for ODAR to
completely eliminate the excess backlog within 5 years. In fact, we estimate
87 additional ALJs would need to be hired in FY 2008 (see Appendix E, Table 6). 34

Production Level of 550 Cases

In FY 2006, 619 of the 895 fully available ALJs processed fewer than 550 cases each.
These ALJs represented approximately 69 percent of the fully available ALJs. If these
ALJs increased production to 550 cases each and the remaining fully available ALJs’
production remained constant, the total production by fully available ALJs would have
increased by 92,335 cases (21 percent) over actual FY 2006 production (see
Appendix E, Table 3).

At this level of production, over 92,000 claimants would have received their decisions
more timely. If the 619 ALJs processed 550 cases each and the remaining fully and
partially available ALJs’ production remained constant, ODAR would be able to stay
abreast of incoming hearing requests and make progress in reducing the backlog
through FY 2012.

If the 619 ALJs increased their annual production to 550 cases each and the remaining
ALJs’ production remained constant, additional ALJs would be needed for ODAR to
completely eliminate the excess backlog within 5 years. In fact, we estimate
15 additional ALJs would need to be hired in FY 2008 (see Appendix E, Table 7). 35




34
     Id.
35
     Id.
Page 9 - The Commissioner

Support for Reasonable Production Goals

At the end of June 2007, there were over 745,000 cases pending at ODAR. SSA
considers approximately 400,000 cases as a manageable pending level to keep
                             36
workflow moving at all times. As a result, there is a true excess backlog of about
345,000 cases. Based on the true backlog, we estimate that if ALJs continue to
process cases at the FY 2006 level, and the number of fully and partially available ALJs
each remain the same, the backlog will increase by about 150,000 cases by FY 2012
(see Figure 1 and Appendix E, Table 2).
                           Figure 1: Change in True Backlog at FY 2006 Production Level
                      550,000

                      500,000
         Number
         of
         Cases
                      450,000

                      400,000

                      350,000

                      300,000
                                  June 2007         2008           2009            2010    2011   2012
                                                                     Fiscal Year

However, if ALJs were held accountable for a reasonable production goal, ODAR could
extend the number of years that annual hearing requests could be processed in total
and see reductions in the backlog (see Figure 2 and Appendix E, Tables 2 and 3). For
example, at the FY 2006 production level, ODAR would not be able to process all of the
projected hearing requests over the next 5 years. However, if fully available ALJs
performed at the production levels of 500 or 550 cases, ODAR would be able to
process all hearing requests and make reductions in the backlog through FY 2012.

                  Figure 2: Projected Hearing Requests Compared to Various Production Levels

          670,000
                                                                                                  Minimum of 550
          650,000                                                                                 Cases
          630,000                                                                                 Minimum of 500
Number
of
                                                                                                  Cases
Cases     610,000                                                                                 Minimum of 450
                                                                                                  Cases
          590,000                                                                                 Minimum of 400
                                                                                                  Cases
          570,000                                                                                 Fiscal Year 2006
                                                                                                  Level
          550,000
                    2008             2009               2010               2011           2012
                                                     Fiscal Year

            Note: The purple line represents the projected level of hearing requests.



36
  According to Commissioner Astrue’s testimony before the Senate Finance Committee, supra note 24,
400,000 cases is the ideal national pending level. This number was calculated based on SSA considering
360 cases per ALJ an ideal pending level. Therefore, the national ideal pending level will vary based on
the number of ALJs.
Page 10 - The Commissioner

We analyzed the fully available ALJs based on tenure to determine whether ALJs with
certain years of service were more likely to perform below each production level (see
Table 3). We found that, regardless of tenure, there was a large percentage of fully
available ALJs who did not process cases at any of the four production levels we
analyzed.

                                             Table 3
                                  FY 2006 Production by Tenure
                       ALJs With Less      ALJs With Less        ALJs With Less         ALJs With Less
 Tenure       Total    Than 400 Cases      Than 450 Cases        Than 500 Cases         Than 550 Cases
 (Years)      ALJs    Number    Percent   Number    Percent     Number    Percent      Number    Percent
    10 or
               371     111      29.92%      155      41.78%        207       55.80%      256      69.00%
    Less
   11-20       381     109      28.61%      160      41.99%        222       58.27%      273      71.65%
     21-30     101      25      24.75%       36      35.64%         50       49.50%       65      64.36%
      31 or
                42      15      35.71%       21      50.00%         23       54.76%       25      59.52%
      More
               895     260      29.05%      372      41.56%        502       56.09%      619      69.16%


ALJ CASELOAD PERFORMANCE BY HEARING OFFICE AND REGION
                                                              37
We analyzed the fully available ALJs in 140 hearing offices and 10 regions to
determine whether certain locations had a higher percentage of fully available ALJs with
performance below minimum production levels of 500 and 550 cases. Specifically, we
identified the percent of fully available ALJs in each hearing office and region that
processed fewer than 500 and 550 cases in FY 2006.

In 81 of the 140 hearing offices, more
than 50 percent of the fully available                             Table 4
ALJs processed fewer than                           FY 2006 Performance by Hearing Office
500 cases (see Table 4 and                                                        Number of Offices
              38                                  Percent of ALJs            Minimum            Minimum
Appendix F). Further, in 113 of the
                                                       Below             Production Level Production Level
140 hearing offices, more than                    Production Level         of 500 Cases      of 550 Cases
50 percent of the fully available ALJs               50 or More                81                 113
processed fewer than 550 cases.                         40-49                 17                 9
The fact that these hearing offices                     30-39                 10                 5
had a large percentage of fully                         20-29                 21                 5
available ALJs that processed cases                     10-19                                    2
                                                                               4
below these production levels is of                 Less Than 10                                 6
                                                                               7
concern, given the number of cases
                                                        Total                140                140
SSA believes that ALJs should be



37
   ODAR has 141 hearing offices and 5 satellite offices. However, our analysis identified 139 hearing
offices and 1 satellite office where fully available ALJs processed cases in FY 2006.
38
   See Appendix F for a discussion of ALJ performance by tenure and hearing office.
Page 11 - The Commissioner

able to process annually. 39 Therefore, SSA should assess the caseload performance
of the hearing offices where a higher percentage of fully available ALJs processed
cases below the level ODAR determines to be reasonable to ascertain why
performance levels were not achieved and take appropriate corrective actions.

Further, over 65 percent of
the fully available ALJs in                                Table 5
the Seattle and Boston                        FY  2006 Performance      by Region
Regions processed fewer                                ALJs with Less Than   ALJs with Less Than
                                                Total       500 Cases             550 Cases
than 500 cases each (see
                                   Region       ALJs    Number     Percent   Number      Percent
Table 5). Conversely, less
                                   Seattle        29       20      68.97%       22       75.86%
than 50 percent of the fully
                                   Boston         44       29      65.91%       34       77.27%
available ALJs in the
                                    Dallas       107       69      64.49%       79       73.83%
Denver, Kansas City, and
                                San Francisco    117       75      64.10%       92       78.63%
Philadelphia Regions
                                  Chicago        129       75      58.14%       88       68.22%
processed less than
                                  New York        76       41      53.95%       51       67.11%
500 cases each in
                                   Atlanta       215      111      51.63%      141       65.58%
FY 2006, with ALJs in the
                                 Philadelphia    107       51      47.66%       74       69.16%
Denver Region being most
likely to process more           Kansas  City     40       19      47.50%       22       55.00%
                       41          Denver         30       11      36.67%       15       50.00%
than 500 cases each.                                40
Further, there were 8                           894       501      56.04%      618       69.13%
regions where over 65 percent of the fully available ALJs processed fewer than 550
cases each. The Kansas City and Denver Regions were the only regions where
55 percent or less of the fully available ALJs processed fewer than 550 cases each.
SSA should evaluate how the procedures used in some regions result in a higher
percentage of ALJs processing cases at the level ODAR determines to be reasonable
and share best practices with other regions.

CONCLUSION AND RECOMMENDATIONS

It is imperative that ALJs process cases at an acceptable level to reduce the emotional
and financial impact of long processing times for the thousands of claimants awaiting
decisions on their appeals. To ensure claimants receive timely and accurate decisions,
ODAR management must have Agency support to establish a performance
accountability process that maintains ALJ qualified decisional independence but holds
ALJs accountable for reasonable levels of performance. ODAR must also have
resources necessary to make timely and accurate decisions on expected hearing
requests. This includes adequate support staff to prepare cases, schedule hearings,
and perform other functions necessary to enable acceptable ALJ caseload
performance. Otherwise, ODAR will not be able to process all incoming hearing
requests or eliminate the backlog of cases.

39
   Supra note 29.
40
   One ALJ processed cases only at the Centralized Screening Unit and was not included in any region.
41
   See Appendix G for a discussion of ALJ performance by tenure and region.
Page 12 - The Commissioner

Once a performance accountability process is established and the backlog of cases is
eliminated, SSA must ensure that case backlogs do not recur in the future. To do so,
SSA must continue to project future case receipts, ALJ attrition, and ALJ hiring.
Further, new ALJs must be hired timely to maximize the use of ODAR’s resources.

Therefore, we recommend SSA:

1. Establish a performance accountability process that does not infringe on ALJ
   qualified decisional independence but allows ALJ performance to be addressed
   when it falls below an acceptable level.

2. Establish a process to identify the availability of each partially available ALJ for case
   adjudication and establish acceptable levels of performance based on availability.

3. Assess the caseload performance of offices where a higher percentage of ALJs
   process cases below the level ODAR determines to be reasonable to ascertain why
   performance levels were not achieved and take appropriate corrective actions.

4. Evaluate how the caseload management procedures in some regions result in a
   higher percentage of ALJs processing cases at the level ODAR determines to be
   reasonable and share best practices with other regions.

AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix H. The Agency also provided technical comments that we considered and
incorporated, where appropriate.




                                                 Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Hearing Office Organization Chart

APPENDIX D – Classification of Administrative Law Judges in Fiscal Year 2006

APPENDIX E – Analysis of Production Levels

APPENDIX F – Fully Available Administrative Law Judges’ Performance by Tenure and
             Hearing Office

APPENDIX G – Fully Available Administrative Law Judges’ Performance by Tenure and
             Region

APPENDIX H – Agency Comments

APPENDIX I – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
ALJ      Administrative Law Judge
APA      Administrative Procedures Act
C.F.R.   Code of Federal Regulations
CPMS     Case Processing and Management System
CSU      Centralized Screening Unit
FY       Fiscal Year
HALLEX   Hearings, Appeals, and Litigation Law Manual
HOCALJ   Hearing Office Chief Administrative Law Judge
MSPB     Merit Systems Protection Board
ODAR     Office of Disability Adjudication and Review
OIG      Office of the Inspector General
SSA      Social Security Administration
Union    Association of Administrative Law Judges, International
         Federation of Professional and Technical Engineers

U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objective we:

   •   Reviewed applicable Federal laws and regulations and pertinent parts of the
       Hearings, Appeals, and Litigation Law manual related to administrative law judge
       (ALJ) hearings.

   •   Reviewed Fiscal Year (FY) 2005 and 2006 caseload analysis reports prepared by
       the Office of Disability Adjudication and Review (ODAR).

   •   Reviewed prior Office of the Inspector General, Government Accountability Office,
       and Social Security Advisory Board reports related to the ALJ hearings process.

   •   Reviewed the agreement between the Social Security Administration (SSA) and
       the Association of ALJs, International Federation of Technical and Professional
       Engineers.

   •   Interviewed SSA staff from ODAR’s Office of Management and Office of the
       Chief ALJ.

   •   Reviewed the Commissioner’s testimony before the Senate Finance Committee on
       May 23, 2007 on the initiatives to eliminate the SSA hearings backlog.

   •   Obtained information from ODAR officials on the number of projected hearing
       requests through FY 2012 and the employment classification for each ALJ in
       FY 2005 and 2006 (that is, senior ALJ, Chief ALJ, new, retired, etc.).

   •   Obtained data extracts from ODAR’s Case Processing and Management System
       of 519,149 cases processed by ALJs in FY 2005 and 558,760 cases processed by
       ALJs in FY 2006. These files contained 210 cases and 218 cases, respectively,
       less than ODAR identified in workload reports published for FYs 2005 and 2006.
       However, the differences of less than 1 percent each FY are immaterial.

   •   Compared the number of cases processed by each ALJ in FY 2005 and
       FY 2006 to various production levels. We identified similar results in both FYs,
       which indicates that the results of our review are not unique to FY 2006.

We conducted our review in Kansas City, Missouri, and Falls Church, Virginia, between
April and August 2007. We determined the data used for this review were sufficiently
reliable to meet our objective. The entity reviewed was the Office of the Chief ALJ within
ODAR. We conducted our review in accordance with generally accepted government
auditing standards.
                                                                  Appendix C

Hearing Office Organization Chart

                             Hearing Office
                               Chief ALJ


    ALJ        ALJ           ALJ            ALJ      ALJ       ALJ


                             Hearing Office
                               Director



                                 Group
                               Supervisor



   Lead Case Technician
   Senior Case Technicians          Attorney Advisors           Senior Attorney
   Case Technicians                 Paralegal Analysts          Advisors



                                            Hearing Office Systems Administrator
   Receptionist
   Case Intake Analyst
   Contact Representative
                                                        Administrative Assistant
                                                                                 Appendix D

Classification of Administrative Law Judges in
Fiscal Year 2006
We obtained a data extract from the Office of Disability Adjudication and Review’s
(ODAR) Case Processing and Management System of 558,760 case decisions issued in
Fiscal Year (FY) 2006. These cases were processed by a total of 1,217 administrative
law judges (ALJ). With the assistance of ODAR’s Audit Liaison, we classified these
ALJs as either fully available or partially available. ALJs were considered partially
available if they were reasonably expected to process fewer cases than fully available
ALJs or were not employed by the Social Security Administration (SSA) during the entire
year. Based on this classification, we determined there were 895 fully available ALJs
and 322 partially available ALJs that processed cases in FY 2006.

             Classification of Partially Available Administrative Law Judges
        ALJ                                                                                 Number
    Classification                               Description                                of ALJs 1
                        The Hearing Office Chief ALJ (HOCALJ), in addition to
      HOCALJ 2          deciding cases, has administrative and managerial                       132
                        responsibility for all personnel in the hearing office.

       Retired          ALJs who retired during the year.                                       45

                        New ALJs are not counted as fully available to process
         New                                                                                    39
                        cases for up to 9 months on duty.
                        In accordance with the agreement between SSA and
                        the Association of ALJs, Union representatives are
        Union                                                                                   22
                        allowed to use official time for the discharge of their
                        duties.
                        Part-time ALJs work less than 80 hours per pay period
                        in case adjudication and are assigned cases on an as-
      Part-time                                                                                 21
                        needed basis determined by the hearing office
                        workloads.

        Leave           ALJs on leave for 20 or more consecutive workdays.                      20



1
  Some ALJs may have been identified in more than one classification; however, we only included them in
one classification. For example, a HOCALJ that retired during the year was only included in the Retired
classification.
2
  The HOCALJ classification includes 37 Acting HOCALJs.


                                                  D-1
             Classification of Partially Available Administrative Law Judges
        ALJ                                                                                 Number
    Classification                               Description                                of ALJs 1
                        Senior ALJs whose appointments ended during the
     Separation                                                                                 11
                        year.

                        The Regional Chief ALJ provides direction, leadership,
       RCALJ            management, and guidance to the regional office staff                   10
                        and hearing office staff, including ALJs.

                        ALJs may go on detail to conduct peer case reviews of
        Detail          other ALJs’ decisions, act in management positions, or                  10
                        perform training.

        Death           ALJs who died during the year.                                           5

                        ALJs who transfer to ODAR may have a learning curve
      Transfer                                                                                   3
                        similar to new ALJs.

       Resign           ALJs who resigned from SSA during the year.                              2

      Medicare          ALJs who processed more than 100 Medicare cases. 3                       2

        Total                                                                                  322




3
  Of the 8 ALJs that processed Medicare cases in Fiscal Year 2006, we considered the 2 that processed
more than 100 Medicare cases to be partially available because they are reasonably expected to process
fewer SSA cases.


                                                 D-2
                                                                                 Appendix E

Analysis of Production Levels
We reviewed 558,760 case decisions issued by administrative law judges (ALJ) in
Fiscal Year (FY) 2006. 1 There were 1,217 ALJs; 895 were considered fully available
and 322 were considered partially available (see Table 1). We considered partially
available ALJs to be those who were reasonably expected to process fewer cases than
fully available ALJs or were not employed by SSA during the entire year. These ALJs
include ALJs who worked less than 80 hours per pay period; all permanent and acting
Regional and Hearing Office Chief ALJs; ALJs on detail; ALJs who processed more
than 100 Medicare cases; ALJ Union representatives; ALJs who were new, retired,
separated, removed, or resigned during the year; and ALJs who died or were on
extended leave. 2

The fully available ALJs processed an average of 485 cases each and a median of
476 cases each, which indicates statistically that the number of cases processed by the
fully available ALJs appears to be evenly distributed. To determine the impact of
maintaining current production levels, we identified the number of cases processed by
each fully available ALJ in FY 2006 and the number of cases processed by all partially
available ALJs.


                                                Table 1
                                      Fiscal Year 2006 Production
                   ALJs in FY 2006         Number of ALJs   Number of Cases Processed
               Fully Available ALJs             895                  434,498
                  Percent of Total              74%                    78%
               Partially Available ALJs         322                  124,262
                 Percent of Total               26%                    22%
               Total                           1,217                 558,760




1
  This number of cases is different than the number the Office of Disability Adjudication and Review
published in its workload reports as processed by ALJs in FY 2006. See Appendix B for the scope and
methodology of our review.
2
  See Appendix D for the number of ALJs in each classification.


                                                   E-1
We then compared the FY 2006 production levels to the number of projected hearing
requests for FY 2008 through FY 2012 (see Table 2). Specifically, we subtracted the
total production from the projected hearing requests to arrive at the excess or deficit
annual production for FY 2008 through FY 2012. We then applied the excess or deficit
annual production to the true backlog at the end of the previous year to arrive at the
true backlog for each year. 3

                                        Table 2
       Production at Current Levels by Fully Available and Partially Available ALJs
                                  June
           Fiscal Year            2007         2008        2009      2010        2011       2012         Total
    Projected Hearing
                                              568,169     577,203    594,750    599,583    603,882     2,943,587
    Requests
    Total Annual Production                   558,760     558,760    558,760    558,760    558,760     2,793,800
    Excess (Deficit) Annual
    Production (Total Annual
                                               (9,409)    (18,443)   (35,990)   (40,823)   (45,122)     (149,787)
    Production less Projected
    Hearing Requests)
    True Backlog (Previous
    FY Backlog less Excess        345,110     354,519     372,962    408,952    449,775    494,897
    Annual Production)

To determine the impact of establishing a reasonable production goal for ALJs, we
analyzed production levels if the 895 fully available ALJs processed a minimum of 400,
450, 500, or 550 cases each per year (see Table 3). For this analysis, we assumed
that the production of ALJs currently processing cases above each level (that is, 400,
450, 500, or 550 cases each) would remain constant. That is, we presumed that an
ALJ who processed 1,805 cases in FY 2006 will continue to process 1,805 cases in
future years. For the remaining fully available ALJs, who processed fewer than the
production level, we presumed that they will increase production to the level being
analyzed (that is, 400, 450, 500, or 550 cases each). Further, we assumed that the
production level of partially available ALJs would remain constant.

                                                  Table 3
                                       Total Production at Each Level
                                                                      400        450        500        550
                                                                     Cases      Cases      Cases      Cases
        Number of Fully Available ALJs Below Each Production
                                                                       260       372        502        619
        Level in FY 2006
        FY 2006 Production by All Fully Available ALJs               434,498    434,498    434,498    434,498
        Increased Production by Fully Available ALJs to Meet Level     26,241    42,223     64,243     92,335

        Potential Production by All Fully Available ALJs (FY 2006
                                                                     460,739    476,721    498,741    526,833
        Production plus Increased Production)
        FY 2006 Production by Partially Available ALJs               124,262    124,262    124,262    124,262
        Total Production                                             585,001    600,983    623,003    651,095


3
 At the end of June 2007, there were over 745,000 cases in the backlog. SSA officials stated that,
dependent on the number of ALJs, approximately 400,000 cases need to be in process at all times to
keep workflow at hearing offices moving. As a result, in June 2007 there was a true backlog of about
345,000 cases.


                                                           E-2
We compared the resulting total production at each of the four levels with the projected
hearing requests through FY 2012 and the current backlog of cases at the Office of
Disability Adjudication and Review to identify the additional ALJs that would be needed
to process all hearing requests and eliminate the excess backlog by FY 2012 (see
Tables 4, 5, 6, and 7 below and on the following pages). Specifically, we calculated the
true backlog at the end of each year based on each production level. We then divided
the true backlog at the end of FY 2012 by the production level being analyzed and by
4 years to identify the number of ALJs that would be needed to eliminate the backlog by
FY 2012. 4

                                          Table 4
                  Production Level of 400 Cases for Fully Available ALJs 5
                                             June
               Fiscal Year                   2007        2008        2009       2010        2011      2012
Projected Hearing Requests                              568,169     577,203    594,750     599,583    603,882
Total Annual Production                                 585,001     585,001     585,001    585,001    585,001
Excess (Deficit) Annual Production (Total
Annual Production less Projected Hearing                 16,832        7,798     (9,749)   (14,582)   (18,881)
Requests)
True Backlog (Previous FY Backlog less
                                            345,110     328,278     320,480     330,229    344,811    363,692
Excess Annual Production)
Additional ALJs (FY 2012 True Backlog of 363,692 divided by 4 Years divided by 400 Cases per ALJ)      227

                                          Table 5
                  Production Level of 450 Cases for Fully Available ALJs 6
                                            June
              Fiscal Year                   2007        2008        2009       2010        2011        2012
Projected Hearing Requests                             568,169     577,203    594,750      599,583    603,882
Total Annual Production                                600,983     600,983    600,983      600,983    600,983
Excess (Deficit) Annual Production (Total
Annual Production less Projected Hearing                32,814      23,780       6,233        1,400    (2,899)
Requests)
True Backlog (Previous FY Backlog less
                                            345,110    312,296     288,516    282,283      280,883    283,782
Excess Annual Production)
Additional ALJs (FY 2012 True Backlog of 283,782 divided by 4 Years divided by 450 Cases per ALJ)      158




4
  Due to a 9-month learning curve for new ALJs, all additional ALJs would need to be hired in FY 2008 and
would not be fully available to process cases at the production level until FY 2009. Therefore, over a
5-year period, the new ALJs would only significantly contribute to reducing the backlog in 4 years.
5
  If all fully available ALJs processed a minimum of 400 cases, the lowest producing ALJs would be
performing at a level equal to approximately 84 percent of the current median of 476 cases.
6
   If all fully available ALJs processed a minimum of 450 cases, the lowest producing ALJs would be
performing at a level equal to approximately 95 percent of the current median of 476 cases.


                                                      E-3
                                           Table 6
                   Production Level of 500 Cases for Fully Available ALJs 7
                                            June
              Fiscal Year                   2007        2008          2009      2010        2011     2012
Projected Hearing Requests                              568,169      577,203   594,750     599,583   603,882
Total Annual Production                                 623,003      623,003   623,003     623,003   623,003
Excess (Deficit) Annual Production (Total
Annual Production less Projected                            54,834    45,800    28,253      23,420    19,121
Hearing Requests)
True Backlog (Previous FY Backlog less
                                            345,110     290,276      244,476   216,223     192,803   173,682
Excess Annual Production)
Additional ALJs (FY 2012 True Backlog of 173,682 divided by 4 Years divided by 500 Cases per ALJ)     87



                                           Table 7
                   Production Level of 550 Cases for Fully Available ALJs 8
                                            June
              Fiscal Year                   2007        2008          2009      2010        2011     2012
Projected Hearing Requests                              568,169      577,203   594,750     599,583   603,882
Total Annual Production                                 651,095      651,095   651,095     651,095   651,095
Excess (Deficit) Annual Production (Total
Annual Production less Projected                            82,926    73,892    56,345      51,512    47,213
Hearing Requests)
True Backlog (Previous FY Backlog less
                                            345,110     262,184      188,292   131,947      80,435    33,222
Excess Annual Production)
Additional ALJs (FY 2012 True Backlog of 33,222 divided by 4 Years divided by 550 Cases per ALJ)      15




7
  If all fully available ALJs processed a minimum of 500 cases, the lowest producing ALJs would be
performing at a level equal to approximately 105 percent of the current median of 476 cases.
8
  If all fully available ALJs processed a minimum of 550 cases, the lowest producing ALJs would be
performing at a level equal to approximately 116 percent of the current median of 476 cases.


                                                      E-4
                                                                                    Appendix F

Fully Available Administrative Law Judges’
Performance by Tenure and Hearing Office
We conducted analysis by tenure of the fully available administrative law judges (ALJ)
that processed fewer than 500 and 550 cases in each hearing office in Fiscal Year
(FY) 2006. There were 13 hearing offices of the 140 where all of the fully available
ALJs processed less than 500 cases (highlighted in yellow). The median tenure of the
ALJs at these 13 hearing offices was 9 years. However, there were 7 hearing offices
where all of the fully available ALJs processed more than 500 cases (highlighted in
orange on Page F-4). The median tenure of the ALJs at these 7 hearing offices was
17 years. There were 23 hearing offices where all of the fully available ALJs processed
less than 550 cases (highlighted in green). The median tenure of the ALJs at these
23 hearing offices was 18 years. However, there were 6 hearing offices where all of the
fully available ALJs processed more than 550 cases (highlighted in blue on Page F-4).
The median tenure of the ALJs at these 6 hearing offices was 11 years.

                                                Total Fully   ALJS with Less Than   ALJS with Less Than
                                      Median    Available         500 Cases             550 Cases
                                      Tenure     ALJs in
  Hearing Office          Region      of ALJs     Office      Number     Percent     Number    Percent
Atlanta, GA           Atlanta           10          9            9        100.00%       9      100.00%
Oklahoma City, OK     Dallas            11          8            8        100.00%       8      100.00%
Pasadena, CA          San Francisco     11          8            8        100.00%       8      100.00%
Miami, FL             Atlanta           5           7            7        100.00%       7      100.00%
Philadelphia, PA      Philadelphia      12          7            7        100.00%       7      100.00%
Knoxville, TN         Atlanta           15          6            6        100.00%       6      100.00%
New Haven, CT         Boston            9           6            6        100.00%       6      100.00%
San Francisco, CA     San Francisco     9           6            6        100.00%       6      100.00%
Peoria, IL            Chicago           2           5            5        100.00%       5      100.00%
New Orleans, LA       Dallas            16          3            3        100.00%       3      100.00%
Madison, WI
                                                                                        2      100.00%
(Satellite)           Chicago           11          2            2        100.00%
Metairie, LA          Dallas            7           2            2        100.00%       2      100.00%
Richmond, VA          Philadelphia      32          2            2        100.00%       2      100.00%
Fort Lauderdale, FL   Atlanta           5          11           10         90.91%      10       90.91%
Chicago, IL           Chicago           10         10            9         90.00%       9       90.00%
Houston, TX           Dallas            16          9            8         88.89%       9      100.00%
Buffalo, NY           New York          9           8            7         87.50%       7       87.50%
Portland, OR          Seattle           12          8            7         87.50%       7       87.50%
Chattanooga, TN       Atlanta           12          7            6         85.71%       7      100.00%
Oakland, CA           San Francisco     12          7            6         85.71%       7      100.00%
Dallas-DT, TX         Dallas            11          7            6         85.71%       6       85.71%
Fresno, CA            San Francisco     10          7            6         85.71%       6       85.71%



                                                   F-1
                                                Total Fully   ALJS with Less Than   ALJS with Less Than
                                      Median    Available         500 Cases             550 Cases
                                      Tenure     ALJs in
  Hearing Office          Region      of ALJs     Office      Number     Percent    Number     Percent
Oak Brook, IL         Chicago           20          7            6         85.71%      6        85.71%
Portland, ME          Boston            7           6            5         83.33%      6       100.00%
Queens, NY            New York          18          6            5         83.33%      6       100.00%
Evanston, IL          Chicago           18          6            5         83.33%      5        83.33%
White Plains, NY      New York          12          6            5         83.33%      5        83.33%
Cleveland, OH         Chicago           9          11            9         81.82%      9        81.82%
Johnstown, PA         Philadelphia      2           5            4         80.00%      5       100.00%
Eugene, OR            Seattle           15          5            4         80.00%      4        80.00%
Orange, CA            San Francisco     5           5            4         80.00%      4        80.00%
Atlanta-N, GA         Atlanta           12          9            7         77.78%      8        88.89%
Tampa, FL             Atlanta           12         13           10         76.92%     11        84.62%
San Antonio, TX       Dallas            12         17           13         76.47%     15        88.24%
Macon, GA             Atlanta           11          4            3         75.00%      4       100.00%
Bronx, NY             New York          7           4            3         75.00%      3        75.00%
San Rafael, CA        San Francisco     7           4            3         75.00%      3        75.00%
Indianapolis, IN      Chicago           15         11            8         72.73%      9        81.82%
Columbus, OH          Chicago           12          7            5         71.43%      5        71.43%
Phoenix, AZ           San Francisco     14         10            7         70.00%     10       100.00%
Syracuse, NY          New York          7           6            4         66.67%      6       100.00%
Las Vegas, NV         San Francisco     12          3            2         66.67%      3       100.00%
Manchester, NH        Boston            18          6            4         66.67%      5        83.33%
Alexandria, LA        Dallas            9           9            6         66.67%      7        77.78%
Kansas City, KS       Kansas City       5           9            6         66.67%      7        77.78%
San Diego, CA         San Francisco     11          9            6         66.67%      6        66.67%
Jackson, MS           Atlanta           5           3            2         66.67%      2        66.67%
Springfield, MO       Kansas City       15          3            2         66.67%      2        66.67%
Boston, MA            Boston            12         11            7         63.64%      8        72.73%
Seattle, WA           Seattle           15         11            7         63.64%      7        63.64%
Los Angeles-W, CA     San Francisco     14          8            5         62.50%      6        75.00%
Dayton, OH            Chicago           12          5            3         60.00%      4        80.00%
Downey, CA            San Francisco     12          5            3         60.00%      4        80.00%
Tulsa, OK             Dallas            11          5            3         60.00%      4        80.00%
Charlottesville, VA   Philadelphia      15          5            3         60.00%      3        60.00%
Colorado Springs,
                                                                                       3        60.00%
CO                    Denver            9           5            3         60.00%
Springfield, MA       Boston            1           5            3         60.00%      3        60.00%
West Des Moines,
                                                                                       3        60.00%
IA                    Kansas City       18          5            3         60.00%
Roanoke, VA           Philadelphia      11          7            4         57.14%      6        85.71%
Cincinnati, OH        Chicago           15          7            4         57.14%      4        57.14%
Greenville, SC        Atlanta           24          7            4         57.14%      4        57.14%
Dallas-N, TX          Dallas            9           9            5         55.56%      8        88.89%
Raleigh, NC           Atlanta           11          9            5         55.56%      8        88.89%



                                                   F-2
                                               Total Fully   ALJS with Less Than   ALJS with Less Than
                                     Median    Available         500 Cases             550 Cases
                                     Tenure     ALJs in
  Hearing Office         Region      of ALJs     Office      Number     Percent    Number     Percent
Brooklyn, NY         New York          11          9            5         55.56%      6        66.67%
Mobile, AL           Atlanta           16          9            5         55.56%      6        66.67%
Albuquerque, NM      Dallas            11          9            5         55.56%      5        55.56%
Jacksonville, FL     Atlanta           12         11            6         54.55%      7        63.64%
Baltimore, MD        Philadelphia      25         11            6         54.55%      6        54.55%
Long Beach, CA       San Francisco     12          6            3         50.00%      5        83.33%
Lansing, MI          Chicago           4           4            2         50.00%      3        75.00%
Sacramento, CA       San Francisco     14         10            5         50.00%      7        70.00%
Fargo, ND            Denver            14          6            3         50.00%      4        66.67%
Hattiesburg, MS      Atlanta           7           6            3         50.00%      4        66.67%
Providence, RI       Boston            14          6            3         50.00%      4        66.67%
Minneapolis, MN      Chicago           12         10            5         50.00%      6        60.00%
Huntington, WV       Philadelphia      16          6            3         50.00%      3        50.00%
Stockton, CA         San Francisco     10          4            2         50.00%      2        50.00%
Albany, NY           New York          18          2            1         50.00%      1        50.00%
Dover, DE            Philadelphia      21          2            1         50.00%      1        50.00%
McAlester, OK        Dallas            7           2            1         50.00%      1        50.00%
Santa Barbara, CA    San Francisco     15          2            1         50.00%      1        50.00%
Birmingham, AL       Atlanta           13         13            6         46.15%      8        61.54%
Little Rock, AR      Dallas            11         11            5         45.45%      6        54.55%
Charleston, WV       Philadelphia      11          9            4         44.44%      6        66.67%
Oak Park, MI         Chicago           18          9            4         44.44%      6        66.67%
Philadelphia-E, PA   Philadelphia      9           7            3         42.86%      6        85.71%
San Bernardino, CA   San Francisco     5           7            3         42.86%      5        71.43%
Lexington, KY        Atlanta           12          7            3         42.86%      4        57.14%
Newark, NJ           New York          12          7            3         42.86%      4        57.14%
St. Louis, MO        Kansas City       12          7            3         42.86%      3        42.86%
Spokane, WA          Seattle           12          5            2         40.00%      4        80.00%
Voorhees, NJ         New York          9           5            2         40.00%      4        80.00%
Elkins Park, PA      Philadelphia      14         10            4         40.00%      7        70.00%
Billings, MT         Denver            2           5            2         40.00%      3        60.00%
Nashville, TN        Atlanta           12          5            2         40.00%      3        60.00%
Washington, D.C.     Philadelphia      13          5            2         40.00%      3        60.00%
Omaha, NE            Kansas City       9           5            2         40.00%      2        40.00%
Tucson, AZ           San Francisco     12          5            2         40.00%      2        40.00%
Greensboro, NC       Atlanta           13          8            3         37.50%      5        62.50%
Creve Coeur, MO      Kansas City       14          8            3         37.50%      4        50.00%
Los Angeles-DT, CA   San Francisco     7           6            2         33.33%      5        83.33%
Milwaukee, WI        Chicago           9           9            3         33.33%      6        66.67%
Harrisburg, PA       Philadelphia      12          6            2         33.33%      4        66.67%
Detroit, MI          Chicago           11          6            2         33.33%      3        50.00%
Houston-DT, TX       Dallas            4           6            2         33.33%      2        33.33%



                                                  F-3
                                               Total Fully   ALJS with Less Than   ALJS with Less Than
                                     Median    Available         500 Cases             550 Cases
                                     Tenure     ALJs in
    Hearing Office       Region      of ALJs     Office      Number     Percent    Number     Percent
Fort Smith, AR       Dallas            2           3            1         33.33%      1        33.33%
Grand Rapids, MI     Chicago           2           3            1         33.33%      1        33.33%
Pittsburgh, PA       Philadelphia      13         10            3         30.00%      7        70.00%
Jericho, NY          New York          15          7            2         28.57%      4        57.14%
New York, NY         New York          16         11            3         27.27%      3        27.27%
Middlesboro, KY      Atlanta           9           4            1         25.00%      3        75.00%
Morgantown, WV       Philadelphia      10          4            1         25.00%      3        75.00%
Memphis, TN          Atlanta           12          8            2         25.00%      4        50.00%
Hartford, CT         Boston            9           4            1         25.00%      2        50.00%
Paducah, KY          Atlanta           13          4            1         25.00%      2        50.00%
San Jose, CA         San Francisco     11          4            1         25.00%      2        50.00%
San Juan, PR         New York          25          4            1         25.00%      2        50.00%
Charlotte, NC        Atlanta           23          4            1         25.00%      1        25.00%
Columbia, SC         Atlanta           13          4            1         25.00%      1        25.00%
Fort Wayne, IN       Chicago           9           4            1         25.00%      1        25.00%
Tupelo, MS           Atlanta           12          4            1         25.00%      1        25.00%
Denver, CO           Denver            11          9            2         22.22%      3        33.33%
Norfolk, VA          Philadelphia      12          5            1         20.00%      4        80.00%
Orlando, FL          Atlanta           16         10            2         20.00%      6        60.00%
Charleston, SC       Atlanta           12          5            1         20.00%      2        40.00%
Florence, AL         Atlanta           15          5            1         20.00%      2        40.00%
Fort Worth, TX       Dallas            11          5            1         20.00%      2        40.00%
Montgomery, AL       Atlanta           9           5            1         20.00%      2        40.00%
Salt Lake City, UT   Denver            17          5            1         20.00%      2        40.00%
Kingsport, TN        Atlanta           20          6            1         16.67%      1        16.67%
Wilkes-Barre, PA     Philadelphia      1           6            1         16.67%      1        16.67%
Orland Park, IL      Chicago           1           7            1         14.29%      4        57.14%
Savannah, GA         Atlanta           12          7            1         14.29%      3        42.86%
Wichita, KS          Kansas City       11          3            0          0.00%      1        33.33%
Flint, MI            Chicago           15          5            0          0.00%      0         0.00%
Louisville, KY       Atlanta           25          5            0          0.00%      0         0.00%
Shreveport, LA       Dallas            19          2            0          0.00%      0         0.00%
Evansville, IN       Chicago           10          1            0          0.00%      0         0.00%
Honolulu, HI         San Francisco     24          1            0          0.00%      0         0.00%
Ponce, PR            New York          24          1            0          0.00%      0         0.00%
                                                      1
                                                  894         501         56.04%    618        69.13%




1
 One ALJ processed cases only at the Centralized Screening Unit (CSU). Since the CSU only assembles
cases and drafts decisions for other offices, it was not included with the hearing offices.


                                                  F-4
                                                                                   Appendix G

Fully Available Administrative Law Judges’
Performance by Tenure and Region
We conducted analysis by tenure of the fully available Administrative Law Judges (ALJ)
in each region that processed fewer than 500 and 550 cases each in Fiscal Year
(FY) 2006. The Seattle Region had the highest percentage of fully available ALJs that
processed less than 500 cases. The median tenure of the ALJs in the Seattle Region
was 12 years. However, the San Francisco Region had the highest percentage of fully
available ALJs that processed less than 550 cases. The median tenure of the ALJs in
the San Francisco Region was also 12 years. In comparison, the Denver Region had
the lowest percentage of fully available ALJs that processed less than 500 and
550 cases. The median tenure of the ALJs in the Denver Region was 9 years.


                       FY 2006 ALJ Performance by Tenure and Region
                              Median    Total Fully    ALJs with Less        ALJs with Less
                              Tenure    Available      Than 500 Cases        Than 550 Cases
                 Region       of ALJs     ALJs        Number    Percent    Number     Percent
                 Seattle        12           29         20      68.97%        22      75.86%
                 Boston         12           44         29      65.91%        34      77.27%
                  Dallas        11         107          69      64.49%        79      73.83%
              San Francisco     12         117          75      64.10%        92      78.63%
                Chicago         11         129          75      58.14%        88      68.22%
                New York        12           76         41      53.95%        51      67.11%
                 Atlanta        12         215         111      51.63%       141      65.58%
               Philadelphia     12         107          51      47.66%        74      69.16%
               Kansas City      12           40         19      47.50%        22      55.00%
                 Denver          9           30         11      36.67%        15      50.00%
                                               1
                                          894          501       56.04%      618       69.13%




1
    One ALJ processed cases only at the Centralized Screening Unit and was not included in any region.
                  Appendix H

Agency Comments
                                  SOCIAL SECURITY



MEMORANDUM


Date:       January 11, 2008                                             Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Administrative Law Judges’
           Caseload Performance” (A-07-07-17072)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.

           Attachment:
           SSA Response




                                                 H-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
"ADMINISTRATIVE LAW JUDGES’ CASELOAD PERFORMANCE"
(A-07-07-17072)

Thank you for the opportunity to review and provide comments on this draft report. This audit
evaluates the effect of varying levels of hypothetical Administrative Law Judge (ALJ)
performance on the ability of the Office of Disability Adjudication and Review (ODAR) to
process hearing requests and to address the hearing backlog.

We note that although the draft audit report is titled “Administrative Law Judges’ Caseload
Performance,” the audit discussion is closely linked to the discussion of our backlog at the
hearing level. We agree that the backlog of cases at the hearing stage has reached a critical level.
We also agree that we must take steps to reduce the backlog and ensure a case backlog does not
recur in the future. ALJ performance plays a part in achieving this goal. However, we must
point out that it is not the only factor leading to the backlog, nor are improvements in this area
able to resolve the backlog without other initiatives. Additionally, as pointed out in your report,
we must also have adequate adjudicators to handle the hearings workload and we must be able to
timely hire ALJs and staff to handle projected case receipts and offset ALJ attrition.

The draft report briefly mentions a need for adequate support staff in Conclusions and
Recommendations, but the report fails to address the effect support staff has on ALJ caseload
numbers. ALJ caseload performance directly correlates to the productivity of support staffing.
ALJ hearing dockets may go unfilled when there are inadequate resources to pull the files. As a
result, ALJs’ productivity may be hindered by reasons beyond their control.

We also note that the audit methodology treats all hearing dispositions equally; however, this is
not the case. Many hearings are found to be unnecessary if the ALJ can issue a fully favorable
decision based on the evidence on hand or on the record (OTR). ALJ productivity levels are
generally much higher on OTRs compared to other hearing dispositions. In many hearing
offices, OTRs are handled by Hearing Office Chief ALJs (HOCALJ). This likely explains why
HOCALJs averaged more dispositions than fully available ALJs. OTR volumes are not
discussed in the draft report so it cannot be determined if OTRs skewed performance levels
among ALJs.

ODAR currently uses benchmarks and timeliness measures to address ALJ performance issues.
The Office of the Chief Administrative Law Judge (OCALJ) has established benchmarks for
processing cases through all major steps, from receipt of the request for hearing, to issuance of a
decision by the ALJ. ALJs whose processing of cases takes longer than the benchmarks are
counseled concerning the timeliness of their decisions. When counseling is ineffective,
disciplinary measures would move progressively from counseling to reprimands, to actions
before the Merit System Protection Board, including requests for suspension or termination, as
appropriate. In addition, ODAR has formed a cross-component workgroup to review issues
related to ALJ performance, including analysis of steps which will be required to establish an
acceptable range of productivity under current case law. Until this analysis is completed, ODAR
will continue to address issues related to ALJ productivity based upon timeliness.


                                                H-2
We also must point out that while increasing accountability and productivity is critical to
reducing the pending workload at the hearing level, it is our position that increased productivity
and quality must go “hand-in-hand.” Consideration might be given to articulating this caution
within the report.

We have reviewed the methodology used by OIG to determine the effect of ALJ performance at
different levels upon the backlog of cases pending at the hearing level. Although we have not
used OIG’s definition of “fully available” and “partially available” in the past, we believe that
OIG’s analysis provides a valuable way of assessing the impact of hypothetical ALJ performance
on the reduction of the backlog. Also, we appreciate the fact that OIG’s conclusions validate the
appropriateness of establishing a performance accountability process for ALJs.

Our response to the specific recommendations is as follows.

Recommendation 1

Establish a performance accountability process that does not infringe on ALJ decisional
independence, but allows ALJ performance to be addressed when it falls below an acceptable
level.

Comment

We agree that we should establish a performance accountability process as well as a
methodology to accurately and objectively assess ALJ performance. The establishment of a
performance accountability system would be a logical step in bringing about improved
performance, not only in the number of cases processed, but in the quality of the decisions as
well. While we agree that this recommendation should be implemented, it should not be
portrayed as the sole method of increasing dispositions. We also caution that development of a
sustainable performance accountability system should be comprehensive and cover both
productivity and quality by addressing legal sufficiency issues. The development of such a
system will require significant analysis of data over an extended period of time. ODAR has
begun working with the Deputy Commissioners for Quality Performance (DCQP) and Human
Resources (DCHR) and the Office of the General Counsel (OGC) to develop such a standard. In
the interim, we continue to approach productivity issues based on timeliness by taking
appropriate actions with regard to ALJs who do not adjudicate their assigned workload within
acceptable timeframes. We are also reviewing our business process with the hope of making
changes which will result in more dispositions.

The development of performance standards should start by examining both ends of the
productivity spectrum. It should include analysis of the performance of ALJs whose productivity
is aberrant, either due to the low number of dispositions rendered or the high number of
dispositions. This should include an analysis of the legal sufficiency of decisions made by
adjudicators on both ends of the performance curve (as a prelude to appropriate action if legal
sufficiency is lacking). For those ALJs who are both highly productive and whose decisions are
legally sufficient, we should undertake an analysis of how they are able to maintain high levels of


                                                H-3
productivity. The goal of such analysis would be to identify and share best practices. It is
expected that productivity may be found to be related not only to the judge's ability, but to the
ability of the support staff as well. Support staff plays a significant role in providing sufficient
cases that are ready to be heard and writing decisions on cases heard by ALJs. They also provide
screening of cases that can be expedited, such as durational denials and cases in which claimant
impairments either meet or equal a listing.

The process of creating performance standards will be a time consuming and complex
undertaking requiring careful deliberations and evaluations. It will also require a coordinated
approach among all stakeholders that need to play a role (e.g., OGC, DCQP, DCHR, etc.). We
expect to implement this recommendation in fiscal year (FY) 2009. While work proceeds on
development of performance standards, OCALJ will continue its effort to hold ALJs accountable
by monitoring the timeliness of their decisions and taking appropriate actions when timeliness
standards are not met.

Recommendation 2

Establish a process to identify the availability of each partially available ALJ for case
adjudication and establish acceptable levels of performance based on availability.

Comment

We agree. A process to measure the performance of partially available ALJs is needed to ensure
that the performance goals and measurement standards are equitable between fully and partially
available ALJs. We agree with the intent of this recommendation, subject to comments in
recommendation 1. We anticipate implementation of this recommendation will require systems
changes which must be prioritized with other Agency initiatives.

Recommendation 3

Assess the caseload performance of offices where a higher percentage of ALJs process cases
below the level ODAR determines to be reasonable and take appropriate corrective actions.

Comment

We agree with this recommendation, subject to comments in recommendation 1. Assessment of
the productivity of various office components might uncover more systemic problems in the
office operations as a whole, not just ALJ performance. However, before this can be done, we
would recommend that an assessment of individual ALJ performance be conducted, followed by
appropriate corrective actions. We estimate that the required analysis of Hearing Offices can be
completed by the end of FY 2008, but corrective actions will require on-site visits which will
take substantially longer. We expect full implementation by the end of FY 2009.




                                                 H-4
Also, we believe that this assessment should be restricted to only those offices where a higher
percentage of ALJs are performing below the established level. We will use our discretion as to
which offices warrant assessment. We also suggest adding to the end of this recommendation
“or ascertain why performance levels were not achieved.” This could cover situations when
performance levels were not met due to unique circumstances unrelated to ALJ performance (e.g.
extended office closures, etc.).

Recommendation 4

Evaluate how the caseload management procedures in some regions result in a higher percentage
of ALJs processing cases at the level ODAR determines to be reasonable and share best practices
with other regions.

Comment

We agree. OCALJ is planning to identify and begin analysis of highly productive offices by the
end of FY 2008. We recognize the value of sharing best practices, but caution that the method of
dissemination is critical to an effective outcome. Suggested best practices should be carefully
screened before they are shared nationally. Depending on the number of best practices
discovered, training delivery may need to take place over a period of time to allow staff to
adequately absorb the new material. For this reason, full implementation will not be completed
until the end of FY 2009.




                                              H-5
                                                                        Appendix I

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Shannon Agee, Audit Manager (816) 936-5590

Acknowledgments

In addition to those named above:

   Tonya Coffelt, Auditor-In-Charge

   Ken Bennett, IT Specialist

   Sandi Archibald, Attorney

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-07-17072.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
